APPENDIX

INDEX TO APPENDICES
APPENDIX A. Oder of the Federal District Court
APPENDIX B. Order of the 9th Circuit Court of Appeals
APPENDIX C. Denial of Petition for Panel Rehearing

APPENDIX A. Oder of the Federal District Court
Granting Defendant’s Motion to Dismiss

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

JS-6

CIVIL MINUTES—GENERAL
Case No. CV19-02030-MWF (AGRx)
William A. Masters v. Xavier Becerra
Title:

Date: June 18,2019

Present: The Honorable MICHAEL W. FITZGERALD. U.S. District Judge
Deputy Clerk:
Rita Sanchez

Court Reporter:
Not Reported

Attorneys Present for Plaintiff:
None Present

Attorneys Present for Defendant:
None Present

Proceedings (In Chambers):

ORDER GRANTING DEFENDANT XAVIER
BECERRA’S MOTION TO DISMISS FIRST
AMENDED COMPLAINT [15]

Before the Court is Defendant Xavier Becerra’s Motion to Dismiss First
Amended Complaint (the “Motion”), filed on April 29,2019. (Docket No. 15).
Defendant also filed a Reply on June 3, 2019. (Docket No. 16). Plaintiff William
Master’s Opposition was referenced in the Reply but was not filed on the docket.
The Motion was noticed to be heard on June 17,2019. The Court read and
considered the papers on the Motion and deemed the matter appropriate for decision
without oral argument. See Fed. R. Civ. P. 78(b); Local Rule 7-15. The hearing was
therefore VACATED and removed from the Court’s calendar.
For the reasons discussed below, the Motion is GRANTED without leave to
amend. The action is barred by sovereign immunity and the Rooker-Feldman doctrine.
The Court thus lacks subject matter jurisdiction over this action.
On March 19, 2019, Plaintiff commenced this action, alleging violations of the
Second Amendment and procedural due process. (Complaint (Docket No. 1)). On
April 11, 2019, Plaintiff filed a First Amended Complaint (“FAC”) as of right. (Docket
No. 11).
The crux of the FAC is that on February 23,2019, the Los Angeles Police
Department (“LAPD”) confiscated two firearms from Plaintiff, one revolver and one
CIVIL MINUTES—GENERAL

I

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No. CV 19-02030-MWF (AGRx)
William A. Masters v. Xavier Becerra
Title:

Date: June 18,2019

rifle. (See id. ^ 5, 31, Ex. B). On February 24, 2018, Plaintiff received notice of a
five-year firearm prohibition from Defendant, which stated as follows:
The California Department of Justice is in receipt of a Law Enforcement
Report of Firearms Prohibition from the LAPD MENTAL EVAL UNIT.
Accordingly, you are hereby notified that pursuant to Welfare and
Institutions Code section 8100, subdivision (b)(1) you cannot possess,
have under your custody or control, purchase or receive, or attempt to
purchase or receive, any firearm whatsoever or any other deadly weapon
for a period of fire years ... [from] February 23, 2018 [to] February 23,
2023.
Pursuant to Welfare and Institutions Code section 8100, subdivision
(b)(3)(A) you may petition the superior court in the county of your
residence for an order that you may own, possess, have custody or
control over, receive, or purchase firearms. If the court finds by a
preponderance of the evidence that you would be likely to use firearms in
a safe and lawful manner, the court may restore your right....
(Id. f 31, Ex. A).
Plaintiff contends that these restrictions—which apply to individuals who
communicate a serious threat of violence against an identifiable victim during mental
health treatment—are inconsistent with the Second Amendment and procedural due
process of the Fourteenth Amendment and requests various forms of relief from the
Court. (Id. 6-44).
Through the Motion, Defendant argues that the FAC should be dismissed under
Federal Rule of Civil Procedure 12(b)(1) and 12(b)(6) for several reasons:
(1) Plaintiffs claims are barred by sovereign immunity under the Eleventh Amendment
and the Rooker-Feldman doctrine; (2) Plaintiff lacks standing; and (3) Plaintiff fails to
state any cognizable claims for relief. (Mot. at 5-22). While cognizant that a pro se
complaint must be liberally construed, the Court agrees with Defendant for the
CIVIL MINUTES—GENERAL

2

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No. CV 19-02030-MWF (AGRx)
Title:
William A. Masters v. Xavier Becerra

Date: June 18,2019

First, sovereign immunity under the Eleventh Amendment bars Plaintiff s
action.
The Eleventh Amendment, by providing states with immunity from suit in
certain instances, concerns the Court’s jurisdiction. See Seminole Tribe ofFlorida v.
Florida, 517 U.S. 44, 54 (1996) (“For over a century we have reaffirmed that federal
jurisdiction over suits against unconsenting States was not contemplated by the
Constitution when establishing the judicial power of the United States.”). A federal
court may not adjudicate a suit against a state alleging violations of that state’s own
law. Pennhurst State Sch. & Hosp. v. Halderman, 465 U.S. 89, 106 (1984) (noting that
adjudicating a lawsuit against a state based on state law is particularly offensive to
federalism). The Eleventh Amendment applies with equal force to suits against state
agencies or departments. See Puerto Rico Aqueduct & Sewer Auth. v. Metcalf & Eddy,
Inc., 506 U.S. 139,144 (1993) (“[T]he same rationale ought to apply to claims of
Eleventh Amendment immunity made by States and state entities possessing a claim to
share in that immunity.”).
However, the Eleventh Amendment does not “bar actions for prospective
declaratory or injunctive relief against state officers in their official capacities for their
alleged violations of federal law.” Coal, to Defend Affirmative Action v. Brown, 674
F.3d 1128,1134 (9th Cir. 2012). Pursuant to Ex parte Young, “[t]he individual state
official sued ‘must have some connection with the enforcement of the act.’” Id.
(quoting Ex parte Young, 209 U.S. 123, 157 (1908)). “[Tjhat connection must be fairly
direct; a generalized duty to enforce state law or general supervisory power over the
persons responsible for enforcing the challenged provision will not subject an official
to suit.” Coalition to Defend Affirmative Action v. Brown, 674 F.3d 1128, 1134 (9th
Cir. 2012) (citing L.A. Cnty. BarAss’n v. Eu, 979 F.2d 697, 704 (9th Cir. 1992)).
Here, the Court concludes that the Office of the Attorney General, an arm of the
State of California, is immune from suit. California has neither consented to nor
waived its sovereign immunity regarding the legal theories asserted in the FAC.
Similarly, Congress has not abrogated California’s sovereign immunity. Moreover, the
LAPD seized Plaintiffs firearms and is otherwise affirmatively enforcing the firearms
CIVIL MINUTES—GENERAL

3

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No. CV19-02030-MWF (AGRx)
William A. Masters v. Xavier Becerra
Title:

Date: June 18,2019

prohibition. While Defendant does have a general duty to enforce California law, that
duty is far too attenuated and does not fall under the exception set forth in Ex parte
Young.Accordingly, Plaintiffs claims are barred against Defendant by sovereign
immunity under the Eleventh Amendment.
Second, Plaintiffs claims are barred by the Rooker-Feldman doctrine.
An application of the Rooker-Feldman doctrine “prohibits a federal district court
from exercising subject matter jurisdiction over a suit that is a de facto appeal from a
state court judgment.” Kougasian v. TMSL, Inc., 359 F.3d 1136, 1139 (9th Cir. 2004);
Cooper v. Ramos, 704 F.3d 772, 111 (9th Cir. 2012) (“[The Rooker-Feldman doctrine]
instructs that federal district courts are without jurisdiction to hear direct appeals from
the judgments of state courts.”). Additionally, a federal district court has no
jurisdiction over issues that are “inextricably intertwined” with allegations underlying
the judgment of a state court. District of Columbia Ct. of Appeals v. Feldman, 460
U.S. 462,486-87 (1983). A claim is inextricably intertwined with a state court
judgement if die “federal claim succeeds only to the extent that the state court wrongly
decided the issues before it.” Pennzoil Co. v. Texaco, Inc., 481 U.S. 1, 25 (1987). This
lack of federal jurisdiction holds even when the plaintiff is bringing a constitutional
claim. Kougasian, 460 U.S. at 1142.
Here, Defendant first notes that “the laws at issue provide detailed procedures
governing the ways persons may challenge the firearm prohibitions imposed on them
via petition to superior court.” (Mot. at 9 (citing Cal. Welf. & Inst. Code §§ 8100(b),
8102(b), 8103(f))). While it is unclear whether Plaintiff has brought suit in Superior
Court pursuant to the relevant procedural requirements, the Court concludes that
Plaintiff s claims in this action would be barred either way. If Plaintiff initiated an
action in Superior Court, then this action is conclusively barred by the Rooker-Feldman
doctrine because the present suit would be “inextricably intertwined” with state court
proceedings. If Plaintiff did not initiate a challenge to his firearm restriction in
Superior Court, then this action is an attempt to bypass those procedures squarely
CIVIL MINUTES—GENERAL

4

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No. CV 19-02030-MWF (AGRx)
Title:
William A. Masters v. Xavier Becerra

Date: June 18,2019

within the jurisdiction of the Superior Court and his claims are still “inextricably
intertwined” with proceedings that should be in state court.
In sum, the action is barred by sovereign immunity and the Rooker-Feldman
doctrine. The Court thus lacks subject matter jurisdiction, and having so concluded,
need not reach the merits of the Defendant’s other arguments.
Accordingly, the Motion is GRANTED without leave to amend.
This Order shall constitute notice of entry ofjudgment pursuant to Federal Rule
of Civil Procedure 58. Pursuant to Local Rule 58-6, the Court ORDERS the Clerk to
treat this Order, and its entry on the docket, as an entry of judgment.
IT IS SO ORDERED.
The Court may not provide advice to any party, including persons who are not
represented by a lawyer. (Such persons are known as “pro se litigants.”) However,
this District does have a “Pro Se Clinic” that can provide information and assistance
about many aspects of civil litigation in this Court. Public Counsel’s Federal Pro Se
Clinic provides free legal assistance to people representing themselves in the United
States District Court for the Central District of California. The Pro Se Clinic is located
at the Roybal Federal Building and Courthouse, 255 East Temple Street, Los Angeles,
California 90012.
The Los Angeles Clinic operates by appointment only. You may schedule an
appointment either by calling the Clinic or by using an internet portal. You can call the
clinic at (213) 385-2977, ext. 270, or you can submit an internet request at the
following site: http://prose.cacd.uscourts.gov/los-angeles.
Clinic staff can respond to many questions with a telephonic appointment or
through your email account. It may be more convenient to email your questions or
schedule a telephonic appointment. Staff can also schedule you for an in-person
appointment at their location in the Roybal Federal Building and Courthouse.

CIVIL MINUTES—GENERAL

5

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No. CV 19-02030-MWF (AGRx)
William A. Masters v. Xavier Becerra
Title:

Date: June 18,2019

In addition, the Court has information of importance to pro se litigants at the
“People Without Lawyers” link, http://prose.cacd.uscourts.gov/.
Pro se litigants may also apply to the Court for permission to electronically file.
Form CV-005 is available at http://www.cacd.uscourts.gov/court-procedures/forms.
The Court’s website home page is http://www.cacd.uscourts.gov.

CIVIL MINUTES—GENERAL

6

APPENDIX B. Order of the 9th Circuit Court of Appeals
Affirming Dismissal

NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

MAR 23 2021

FOR THE NINTH CIRCUIT
WILLIAM A. MASTERS,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 19-55757

Plaintiff-Appellant,

D.C.No. 2:19-cv-02030-MWFAGR

v.

XAVIER BECERRA, in his official capacity
as the Attorney General of the State of
California,

MEMORANDUM*

Defendant-Appellee.
Appeal from the United States District Court
for the Central District of California
Michael W. Fitzgerald, District Judge, Presiding
Submitted March 16, 2021**
Before:

GRABER, R. NELSON, and HUNSAKER, Circuit Judges.

William A. Masters appeals pro se from the district court’s judgment
dismissing his action alleging constitutional claims related to California Welfare
and Institutions Code § 8100(b) and § 8102(a). We have jurisdiction under 28

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
The panel unanimously concludes this case is suitable for decisionwithout oral argument. See Fed. R. App. P. 34(a)(2).

I

U.S.C. § 1291. We review de novo a dismissal under Federal Rules of Civil
Procedure 12(b)(1) and 12(b)(6). Conservation Force v. Salazar, 646 F.3d 1240,
1241 (9th Cir. 2011). We may affirm on any basis supported by the record.
Yagman v. Garcetti, 852 F.3d 859, 863 (9th Cir. 2017). We affirm.
Dismissal of Masters’s Second Amendment challenge was proper because
Masters failed to allege facts sufficient to state a plausible claim. See United States
v. Chovan, 735 F.3d 1127, 1136 (9th Cir. 2013) (setting forth two-step Second
Amendment inquiry to determine appropriate level of scrutiny for challenged law);
see also Silvester v. Harris, 843 F.3d 816, 823 (9th Cir. 2016) (noting “near
unanimity” that intermediate scrutiny is appropriate when considering regulations
that fall within the scope of the Second Amendment). Even if strict scrutiny
applies, Masters failed to allege facts sufficient to show that the statute is not
narrowly drawn to serve a compelling state interest. See Green v. City of Tucson,
340 F.3d 891, 896 (9th Cir. 2003) (explaining strict scrutiny); cf Dist. of Columbia
v. Heller, 554 U.S. 570, 626-27, 627 n.l (2008) (explaining that the right secured
by the Second Amendment is not unlimited; setting forth nonexhaustive list of
presumptively lawful regulatory measures).
Dismissal of Masters’s facial and as-applied procedural due process
challenges was proper because Masters failed to allege facts sufficient to state a
pjausibjeclaim.^Sgg Ashcroft v. IqbaL 556 U.S. 6.62, 678, ,681 .(2009). (to .avoid

2

19-55757

APPENDIX C. Denial of Petition for Panel Rehearing

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

JUL 1 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

WILLIAM A. MASTERS II,
Plaintiff-Appellant,
v.

ROB BONTA, in his official capacity as the
Attorney General of the State of California,

No.

19-55757

D.C. No. 2:19-cv-02030-MWFAGR
Central District of California,
Los Angeles
ORDER

Defendant-Appellee.
Before:

GRABER, R. NELSON, and FORREST,* Circuit Judges.

Masters’s petition for panel rehearing (Docket Entry No. 23) is denied.
No further filings will be entertained in this closed case.

Formerly known as Danielle J. Hunsaker.

